                      National Archives and Records Administration
                                                                                        8601 Adelphi Road
                                                                       College Park, Maryland 20740-6001


Date       :    December 21, 2005

Reply to
Attn of    :    Office of Inspector General (OIG)

Subject    :    Audit Memorandum 06-07, Evaluation of Management Control Program for FY 2005

To         :   Allen Weinstein, Archivist of the United States (N)

           Our review of the National Archives and Records Administration’s (NARA’s) Management
           Control Program for FY 2005 has been completed. The OIG performs this review annually to
           ensure that agency managers continuously monitor and improve the effectiveness of
           management controls associated with their programs. This continuous monitoring, and other
           periodic evaluations, provides the basis for the Archivist’s annual assessment of, and report on
           management controls, as required by the Federal Managers’ Financial Integrity Act (FMFIA).

           We found that NARA’s assurance statement was adequately supported and complied with the
           intentions of FMFIA and OMB Circular A-123, Management Accountability and Control.
           Pursuant to Section 4 of FMFIA, the financial subsystems of NARA generally conform to the
           objectives detailed in the revised OMB Circular A-127, Financial Management Systems.
           Although some systems are not in complete conformance because they fail to meet the
           financial management system requirement, the nonconformances are not deemed material.
           Because no recommendations are being made, we felt it would be more appropriate to provide
           the results of our effort through an audit memorandum rather than a more formal reporting
           process.

           The purpose of our evaluation was to determine the extent to which there is sufficient
           evidence that NARA complied with the requirements of the FMFIA, OMB Circular A-123,
           OMB A-127, and NARA 114, Management Controls to support the Archivist’s FY 2005
           assurance statement to the President and Congress.

           To accomplish our objective, we examined the assurance statements and related management
           control evaluation documents submitted by NARA office heads in support of their assurance
           statements and in accordance with NARA 114. We performed a detailed review on the
           assurance statements of five major program offices: Office of Administration (NA), Office of
           Information Services (NH), Office of Presidential Libraries (NL), Office of Regional Records
           Services (NR) and Office of Records Services (NW), while performing a desk audit on the
           remaining offices’ assurance statements. We reviewed the related evaluation files to assess
           the timeliness and adequacy of actions planned and taken in response to recommendations
           from evaluations completed in both the current and previous fiscal years.



                                                      1
                                 National Archives and Records Administration
We compared information in the evaluation files to assess the accuracy of information
reported in the assurance statements. We interviewed the NARA management control officer,
and management control liaisons for each NARA organization. Our review revealed the
following four issues.

Inaccurate Information Reported

Our review noted three instances where inaccurate information was reported in management’s
assurance statements to the Archivist. This condition resulted from lack of communication
between management control liaisons and program offices. This could result in the Archivist
reporting inaccurate information in the agency assurance statement.

In the first instance, NR reported in Enclosure C, Description of Material Weakness in
Management Controls, that the Radio Frequency Identification Tag (RFID) technology testing
was completed in FY 2005. NR also states the study concluded the RFID technology was not
a viable option.

At the end of FY 2004, NARA hired a contractor to determine if using RFID technologies
would be a viable solution to tracking documents and artifacts, thereby reducing the risks of
theft and misfiling. The contract was awarded on September 23, 2004, with a performance
period of September 27, 2004, to March 26, 2005. As of October 2005, the contractor has not
submitted its first deliverable, which is the project management plan. This plan should
include a project schedule and a written methodology plan. After further discussion with the
management control liaison for NR and NW, we learned the project is technically still
on-going. However, the contractor failed to perform in a reasonable time frame and NARA is
considering canceling the contract.

According to NR’s management control liaison, the project was complete because, “for all
practical purposes, NARA will not continue to pursue this technology.”

In the second instance, NA reported that A-127 reviews on Budget Execution and
Formulation were completed. After requesting copies of the report, we learned the reviews
were not performed. According to the Director of Financial Services Division (NAB), the A-
127 review on the financial management subsystems were not performed because the service
was being performed under another contract. In addition, the management control liaison
included these reviews in the assurance statement because she thought they were completed.

In the third instance, NH reported they currently have and have tested contingency plans for
all the systems. After further inquiry, it was determined that contingency plans have not been
completed for two systems. According to the Chief Information Security Officer (CISO), one
of the systems is not a certified system and therefore does not have a contingency plan.
However, the issue with the other system is being resolved with the system owner. Based on
the self assessment, NH’s understanding is there is not a contingency plan because it is not
required. NARA 114.11 states office heads must make an annual assurance statement to the
Archivist on their system of management controls.



                                                2
                           National Archives and Records Administration
The assurance statement must include a list of management evaluations conducted and
specific examples of management knowledge used as the basis for the assurance. In NARA
Notice 2005-229, Assurance Statements for FY 2005, the Archivist states, “to adequately
support my assurance statement, I must be fully assured that management controls of each
office and staff are achieving their intended objectives. I need an assurance statement that
assesses your management controls. It is very important that you report the status of all
deficiencies and weaknesses and identify any material weaknesses as defined.”

In preparing the agency’s assurance statement, the Archivist is relying on management
assurance statements that are not entirely accurate. This could result in the Archivist
inaccurately reporting to the President and Congress the adequacy and effectiveness of
management controls in NARA’s programs and administrative activities.

Inconsistent Reporting on Open Recommendations

We noted numerous instances in which program offices reported differently on the status of
the same open recommendations. We also noted instances where program offices reported
OIG reports or recommendations were closed; however, the reports or recommendations
remain open. NARA 114 states program offices should coordinate before preparing their
assurance statements to ensure conformity. This could result in the Archivist inaccurately
reporting to the President and Congress the adequacy and effectiveness of management
controls in NARA’s programs and administrative activities.

Our review revealed that two program offices, NA and NR reported differently on the same
open recommendations. NA’s Space and Security Management Division (NASS) performed
physical security and life safety audits at several records centers, which resulted in
recommendations. These reviews and recommendations are reported on each program office
assurance statement. The chart below details the report, recommendation, and how each
program office reported the status of the recommendation.

Review/ Date                       Recommendation             NR Status of         NA Status of
                                                              recommendation       recommendation
MPRC Physical Security and                   1-4              NR is reporting as   NA is reporting as
Life Safety Inspection/                                       open                 closed
FY 2004
Seattle Physical Security and                  3              NR is reporting as   NA is reporting as
Life Safety Inspection                                        closed               open


Pittsfield Physical Security                   1              NR is reporting as   NA is reporting as
and Life Safety Inspection                                    open                 closed
Bannister Physical Security                    1              NR is reporting as   NA is reporting as
and Life Safety Inspection                                    open                 closed
Lee Summit Physical and                        1              NR is reporting as   NA is reporting as
Life Safety Inspection                                        closed               open




                                                    3
                               National Archives and Records Administration
The following chart details the program offices that reported the incorrect status on OIG open
items.

OIG Report        Program Office Status              OIG status
No.
OIG #03-10        NHPRC reported as closed           OIG has recommendation #4 as open;
                                                     therefore the report is still open
OIG #03-06        NPOL/NW reported this as           OIG has recommendation #1 as open;
                  closed                             therefore the report is still open.
OIG #03-01        NH reported                        OIG has the recommendation as open.
                  recommendation #4 as
                  closed
OIG #04-22        NH reported                        OIG has the recommendation as open.
                  recommendation #2c as
                  closed
OIG 04-23         NH reported                        OIG has the recommendation as open.
                  recommendation #1 as
                  closed
OIG 05-05         NH reported                        OIG has these recommendations as
                  recommendations 1a & 1b            open.
                  as closed. NA reported
                  recommendation #1c as
                  closed.
OIG #04-13        NR reported                        OIG has these recommendations as
                  recommendations #1 &3 as           open.
                  closed.

Managers and management liaisons are not coordinating their responses with NA or NPOL
before preparing their assurance statements to ensure conformity with inspections performed
by NA or OIG. The failure to properly monitor and report on the status of open
recommendations could lead to inaccuracies in the Archivist’s assurance statement to the
President.

Supporting Documentation Not Maintained

At least on one occasion, we noted documentation was not maintained to support statements
reported in the program assurance statements. NARA 114 states management control
assessments must be documented in writing. Supporting documentation was not prepared
because the audit conducted by the program office ISOO did not reveal any exceptions.
Without the proper support documentation, we are unable to verify if the program office
actually performed the review as stated.

ISOO’s assurance statement reports an audit of credit card records was completed for two
purchase card holders. After requesting a copy of the report, we later learned a report was not
prepared. ISOO’s management control liaison stated the credit card audit was performed on
one purchase card holder. Since everything was in place, no formal report was written.


                                                 4
                            National Archives and Records Administration
The management control liaison reported the results of the audit in a staff meeting; however,
notes from the staff meeting are not maintained.

NARA 114 states management control assessments must be documented in writing, either in
the body of the report or in other materials maintained in the management control assessment
file. OMB A-123 states documentation for transactions, management controls, and other
significant events must be clear and readily available for examination. Without clear and
readily available documentation, we are unable to determine if the information reported in the
assurance statement is accurate.

Lack of Management Control Plan

One program office did not prepare a management control plan. According to NARA 114,
each office head must develop and update a management control plan.

NEEO does not have a management control plan. NARA 114 states, that to ensure that
appropriate action is taken throughout the year to meet the objectives of FMFIA, each office
head must develop and update a written management control plan. The management control
plan must include a list of critical functions, operations and programs, and must document the
frequency with which management control in these critical areas will be reviewed. The plan
should be used as a framework for planning future reviews. Since the most critical function of
possible vulnerability of NEEO is the processing of EEO complaints of discrimination, the
Director of EEO and Diversity Programs finds it unnecessary to develop a specific
management control plan. Without a specific management control plan, the program office
may fail to perform the required program reviews, which serve as the basis for the agency’s
assurance statement.

As a result of a meeting concerning these conditions, NARA’s Management Control Liaison
has agreed to work with liaisons in each office to ensure accurate information is reported,
reporting on recommendations is consistent, supporting documentation is maintained and
management control plans are documented.

Clifton Gunderson also performed A-123 and A-127 reviews as part of the financial statement
audit. They did not report any findings but made several suggestions. The NARA
Management Control Liaison agreed to review and implement these suggestions where
applicable.

This evaluation was performed in accordance with generally accepted government auditing
standards from September 2005 through December 2005 at Archives II in College Park,
Maryland. Should you or your staff have any questions, or require additional information,
please contract James Springs or me at (301) 837-3000.



Paul Brachfeld
Inspector General



                                                5
                           National Archives and Records Administration
